December 29, 2020
VIA ELECTRONIC FILING
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, D.C. 20543
Re: Maryland Shall Issue, Inc., et al. v. Hogan, No. 20-855
The undersigned is counsel of record for petitioners, Maryland
Shall Issue, Inc., et al., in the above-captioned matter.
In accordance with Rule 37.2(a) of the Rules of the Supreme
Court, petitioners hereby grant blanket consent to the filing of
amicus briefs in support of either or of neither party in this
matter.
Thank you.
Sincerely,

Mark W. Pennak
Counsel of Record for Petitioners
mpennak@marylandshallissue.org
cc:

Adam D. Snyder and Robert Scott, Counsel for Respondent
asnyder@oag.state.md.us and rscott@oag.state.md.us

9613 Harford Rd., Ste C #1015, Baltimore, MD 21234-2150, (410) 849-9197
www.MarylandShallIssue.org

